No. 20-_
INTHE

~upreme QCourt of tbe mntteb ~tatei)
RAYMOND MARLING,

Petitioner,

v.
WARDEN OF WABASH VALLEY CORRECTIONAL FACILITY,

Respondent.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5 and the April 15, 2020 Order of this
Court, I hereby certify that the Petition for Writ of Certiorari in Raymond Marling v.

Warden of Wabash Valley Correctional Facility, No. 20-_, was served via electronic
mail on all parties required:
Tyler Banks

OFFICE OF THE ATTORNEYG ENERAL

302 W. Washington St.
Indiana Government Center South-5th Floor
Indianapolis, IN 46204
(317) 234-7016
Tyler.Banks@atg.in.gov

Counsel for Respondent

I declare under penalty of perjury that the f o r e g o i ~ ~

Date: January 13, 2021

7

aakwM. Jroth

